<html>
<title> - MISHANDLED BAGGAGE: PROBLEMS AND SOLUTIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
               MISHANDLED BAGGAGE: PROBLEMS AND SOLUTIONS

=======================================================================

                                (109-68)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-283                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

?

                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Bryan, Charlotte, Acting Assistant Administrator for 
  Transportation Sector Network Management, Transportation 
  Security Administration........................................     9
 Meenan, John M., Executive Vice President and Chief Operating 
  Officer, Air Transport Association.............................     9
 Podberesky, Samuel, Assistant General Counsel, Aviation 
  Enforcement and Proceedings, U.S. Department of Transportation, 
  accompanied by Michael A. Cirillo, Vice President, Systems 
  Operations Service, Air Traffic Organization...................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    39
Costello, Hon. Jerry F., of Illinois.............................    40
Marchant, Hon. Kenny, of Texas...................................    41
Oberstar, Hon. James L., of Minnesota............................    45
Porter, Hon. Jon, of Nevada......................................    59

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bryan, Charlotte................................................    33
 Meenan, John M..................................................    42
 Podberesky, Samuel..............................................    47

                       SUBMISSION FOR THE RECORD

Reichert, Hon. David G., a Representative in Congress from 
  Washington, Bennett and Debra Healy, letter and supporting 
  materials, May 4, 2006.........................................    60


               MISHANDLED BAGGAGE: PROBLEMS AND SOLUTIONS

                              ----------                              


                              May 3, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Aviation, Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m. in Room 
2167, Rayburn House Office Building, the Honorable John J. Mica 
[chairman of the committee] presiding.
    Mr. Mica. Good morning. I would like to call this hearing 
of the House Aviation Subcommittee to order. Welcome everyone 
this morning.
    The topic of today's discussion is Mishandled Baggage: 
Problems and Solutions. It should be a relatively short 
hearing, but it is an important hearing on an issue that faces 
our passenger transportation system and the traveling public.
    As I said, we have one panel of witnesses and we will hear 
from them. We will have some opening statements by members as 
the first order of business. I will proceed with mine and then 
we will hear from other members, then we will hear from our 
panelists. Again, welcome everybody.
    This morning's hearing will focus, as I said, on the 
growing problem of airline passenger baggage that is delayed, 
damaged, lost or stolen. I think that is very important, 
particularly at this time, in a few more weeks we will be 
entering the peak travel season which will not only bring 
increased flight delays, we will have also more problems with 
weather. But we will not only see those delays but will also 
see increased problems with baggage.
    The traveling public and our airlines unfortunately will 
experience, I believe, a baggage meltdown this summer, because 
again of the confluence of some of these problems that I have 
cited.
    Mishandled baggage has increased by 23 percent in the 
United States from 2004 to 2005 to a rate of about 6 mishandled 
bag reports per 1,000 passengers. The vast majority of these 
complaints are related to baggage that is unfortunately 
delayed.
    Sometimes probably all of us have experienced first-hand 
the frustration of having our bags delayed. In addition to 
customer inconvenience, mishandled baggage is also a huge 
financial drain on the airlines, and as you know, many of those 
are struggling financially.
    Mishandled baggage has also been estimated to cost the 
airline industry worldwide $2.5 billion per year. If you 
calculate, a simple calculation, we have about two-thirds of 
the world traffic, it is probably a $2 billion price tag for 
the United States carriers.
    Airline passenger bags are mishandled because of again, 
weather, theft, human error and also sometimes because of the 
TSA screening process. Nearly two-thirds of all baggage delays 
are caused by transfer baggage mishandling. Bags often take 
longer to reach a flight than passengers.
    Normally airline schedules take some of these problems and 
timing into account. However, flight delays caused by severe 
weather, air carrier maintenance, crew problems, air traffic 
control problems or security delays, can and do reduce the 
actual time available to make a connection, resulting in 
delayed baggage.
    Unfortunately, a growing cause of baggage delay, something 
that is under Federal command, is security screening. 
Unfortunately, that problem is increasing. Last summer, 
passengers were left in long security lines and backups and the 
baggage screening process left baggage also sometimes far 
behind. For example, the July 4th, 2005 Washington Post had an 
article that said flights were routinely delayed last summer at 
Dulles Airport, as planes sat at the gate waiting for passenger 
baggage to work its way through the baggage screening process. 
At Fort Lauderdale airport, back in my back yard, baggage and 
security delays caused chaos. At one point we had near-riots 
because of problems with the bags, delayed passenger and 
baggage screening.
    As planes fill to capacity this summer, I am afraid more 
baggage turmoil is almost an inevitability. Screening delays 
such as these can and should be eliminated, I believe, through 
better technology. To date, and this is a remarkable figure, 
only 14 of our 429 commercial airports have installed inline 
automated high-tech baggage screening systems.
    Since the Transportation Security Administration was 
created in 2002, we have spent over $25 billion on a very 
expensive and labor-intensive aviation security system. Despite 
this massive spending, few Federal dollars have gone toward 
deploying and installing inline explosive detection automated 
high-tech systems. Converting to these high-tech inline 
explosive detection systems is important for several reasons.
    Really the most important reason we have those systems and 
those required checks is detection of explosives and dangerous 
materials. The most important reason to have this high-tech 
equipment is that it is probably as good as it gets in terms of 
detection. We have tested this system, some of the results are 
not public, but I can assure you that the tests with these 
automated inline systems are phenomenal. And unfortunately it's 
just the opposite where you have labor-intensive hand screening 
of the checked baggage.
    I believe that inline automated EDS systems also pinpoint 
whether TSA or the air carrier is responsible for mishandling 
baggage, something we can't do now.
    While installation of inline explosive detection systems 
requires a large up-front capital investment cost, it does 
significantly reduce TSA's operating costs, and those savings 
can pay for installation of these systems in just a few years. 
Not only is automated bag screening less costly, as I said, it 
performs the detection, again, our primary purpose for this 
whole process, in a much better fashion. These automated 
systems also don't file worker comp claims, they don't call in 
sick and their work force doesn't turn over rapidly.
    [Laughter.]
    Mr. Mica. Last week I think some of you might have seen the 
TSA article that was featured, I guess in USA Today, when they 
brought to light that an astounding 24 percent of TSA staff 
turned over, a turnover rate of 24 percent. Actually, that is a 
national average. If you start looking at the 29 airports that 
handle 75 percent of our passengers, the rate is much higher. 
Not to mention those that are out on workers comp and for other 
reasons not appearing at work.
    According to a March 2005 GAO report, TSA analysis showed 
that installing inline EDS at nine airports that were covered 
by letters of intent would result in a savings to the Federal 
Government of $1.26 billion over seven years, with the initial 
investment in the systems recovered just in 1.07 years. So in 
just a little over a year you could recover the cost of 
installation.
    We currently employ 16,708 full-time equivalent TSA staff 
to process checked baggage, or approximately 33 percent of 
TSA's work force. Simple math can tell you how much we could 
save, not to mention we get better detection by using these 
systems.
    According to TSA's own analysis, inline EDS could reduce by 
78 percent the number of TSA baggage screeners and supervisors 
required to screen checked baggage at the airports that they 
reviewed. Despite the operational cost savings TSA could derive 
from installing inline detection systems, progress in 
installing such systems has been slow. To date, of the top 25 
airports in terms of passenger enplanements, only 3 airports 
have fully converted to inline EDS systems. At the current 
installation pace, according to my calculations it will take 18 
years before inline systems and automated checked baggage 
systems reach all our major airports.
    The airlines also have a very significant role to play in 
mishandled baggage. In 1999, 14 major airlines agreed to 
implement a 12-point customer service commitment, including a 
commitment to on-time baggage delivery. And I remember some 
time after I took over as Chairman, after February of 2001, 
before September 11th, we met and we had a public declaration 
that the airlines would keep their public service commitment. 
We had that pledge from them.
    Last year, I asked the Department of Transportation Office 
of Inspector General to assess how effective the airline 
customer service commitment has been in improving customer 
service. I am told that work is currently in progress. I look 
forward to receiving the independent analysis and review by the 
Inspector General some time in the near future.
    I also look forward to the testimony of today's witnesses. 
I am hopeful that this hearing can help us gain an 
understanding of the cause of the mishandled baggage and 
hopefully we can also take away from this hearing some 
solutions and recommendations to resolve this problem.
    I am pleased now to recognize the Ranking Member of the 
Subcommittee, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. I want to thank you 
for scheduling this hearing today. In particular, I want to 
thank our colleague and a valued member of this Subcommittee, 
Mr. Boswell, who contacted us immediately back in March and 
requested a hearing on this matter today. So I thank our 
colleague, Mr. Boswell.
    Mr. Mica. I failed to give credit to Mr. Boswell. I am 
sorry it took this long to get to this issue, but he is the 
prime motivator. I thank him for bringing that to the 
Subcommittee's attention.
    Mr. Costello. Mr. Chairman, I have a formal statement which 
I will enter into the record. But let me say that it has been 
widely reported, both the foreign and domestic carriers 
collectively mishandled approximately 30 million bags out of 
approximately 3 billion checked last year in the United Sates 
alone. Approximately 3.6 million bags were mishandled in 2005. 
The Department of Transportation data indicate that the 
mishandling baggage rate has increased by 23 percent from 2004 
to 2005. However, I think we have to note that the current rate 
of mishandled baggage is only slightly higher than it was in 
2000, the last peak travel year before September 11th, but far 
better than it was in 1988, the first year that the mishandled 
baggage reporting requirement was placed on the industry.
    While these numbers are relatively low, mishandled bags 
cost airlines and the Federal Government increasingly more 
money. RFID technology is one possible way to improve baggage 
handling. Adopting technologies such as RFID tagging and bag 
reconciliation systems to track baggage at various points 
throughout the bag's journey could mean fewer bags being 
handled manually and improve security. It has been estimated 
that it could save the aviation industry an estimated $760 
million per year.
    Mr. Chairman, as you noted and have noted in the past, we 
have had discussions both in hearings and with industry 
officials, we need to get the technology out to the airports in 
order to improve this system and also to improve security. You 
know that since September 11th, the TSA is the agency now 
responsible for inspecting or otherwise handling checked 
baggage prior to the airlines boarding it on an aircraft.
    I am pleased that we have a representative from TSA to 
discuss what the agency is doing to cut down on mishandled 
bags, as well as the process the passenger must go through if 
he or she discovers that his bag has been mishandled or opened.
    And I look forward to hearing the testimony of our 
witnesses today. Again, I thank you for calling the hearing and 
thank our colleague, Mr. Boswell, for requesting this hearing.
    Mr. Mica. Thank you.
    Mr. Boswell?
    Mr. Boswell. After those nice words, maybe I shouldn't say 
anything.
    Thank you very much, both of you, for calling this hearing. 
It occurred to me when I saw the report that, I thought 
immediately about the time I have had a misplaced bag, both 
domestic flight and international. It causes a lot of stress 
and concern, it really does. I would be curious, I don't know 
if anybody would be willing to participate or not, but I wonder 
how many in the room have ever had their bag misplaced.
    [Show of hands.]
    Mr. Boswell. Okay, a lot of us.
    So I think it is important that we take this information, 
and I appreciate the Chairman's remark, and try to find a 
solution. We're not here to point blame or anything. What is 
the solution and how can we serve our public better? So that is 
what it is about.
    But 30 million bags lost or stolen in 2005, with over 
200,000, so I am told, never reunited. Also, this report stated 
from SITA that the problem of mishandled baggage was worsening 
on both sides of the Atlantic. I do hear about this from 
constituents quite a bit.
    With higher airfares and less convenience at airports 
today, passengers need to get better than 30 million lost bags. 
I think we could agree on that.
    In 2005, it was estimated that some 3 billion bags were 
checked worldwide, 30 million were mishandled or lost. The U.S. 
DOT approximates 3.6 million were mishandled or lost. Whether 
you're a business or leisure traveler, I can think of no 
greater inconvenience than arriving at your destination without 
your baggage when you really need something that is in the 
baggage.
    This problem means more and more passengers to forego 
checking their luggage and carrying them aboard for placement 
in overhead bins. Just think of ourselves, we fly every week, 
and I do that. I try my best not to check, and I hadn't really 
thought too much about it. But I do try not to check, so 
consequently, I would guess my Chairman and Ranking Member, you 
probably have clothes in different locations that you would 
just as soon not have to have, and probably wouldn't if you 
could count on your bags being transported.
    But it leads to delays in screening by the TSA, sometimes 
boarding the aircraft and in some cases I am told actual 
departure, and I think I have seen that. So the system, or we, 
need to be held accountable. It is unacceptable.
    As a strong supporter, and I feel that I am, I think I have 
demonstrated that in many ways, to the Chair and our Ranking 
Member, a strong supporter, a frequent customer of our airline 
industry, I genuinely want our carriers to succeed. We all do. 
I requested a hearing not to lay blame at the doorstep of the 
industry, but to investigate the root causes of the lost 
baggage problem, so that we might work together to develop 
solutions to what is quite clearly a major problem for 
passengers.
    Compared to 1988, when the mishandled baggage rule went 
into effect, today's numbers, while somewhat better, are still 
unacceptable. The other problem relates to having no 
requirement as to what specific type of mishandling had 
occurred. Were they lost, delayed, damaged, pilfered? The lack 
of a standardized system for labeling mishandled luggage is a 
problem itself. I would suggest a more detailed report would be 
helpful, and proper assessment of the data.
    Mishandled baggage reports are kind of misleading, too, I 
think. A single mishandled baggage report does not necessarily 
correspond to a single mishandled bag or a single passenger. 
One filed report could cover multiple bags or family members. 
This is part of the report that could possibly be refined.
    I am told the number one reason for baggage delays, nearly 
two-thirds, is transfer mishandling. This means it takes longer 
for the baggage to reach the flight than for the passenger to 
reach the same flight. Minimum connecting times for each 
individual airport, largely based on transferring baggage 
established by the Air Transport Association, and the 
International Air Transport Association. Perhaps these minimum 
connecting times should be reevaluated and altered.
    I am particularly concerned as to whether airline staffing 
requirements may be too thin to meet some peak baggage handling 
demands. This is something we saw during the Christmas holiday 
period of 2004 in two key hub airports. Lost or mishandled 
luggage represents a badge of shame for all of us, everybody in 
the industry.
    Today we will hear from a person tasked by the U.S. DOT for 
enhancement for air travel consumer protection requirements. We 
have been advised over 500 aviation consumer complaints are 
filed with the DOT each month. Is it reasonable to conclude 
that this number is not reflecting the true number of 
complaints? It remains difficult for passengers to know the 
proper procedure to file a complaint. That is why I am 
developing a link on my Congressional web site to assist 
constituents who wish to file a complaint with the proper 
information.
    The air carriers are struggling to see profitability, and 
they have to have profitability. I don't want to see passenger 
service compromised. There is surely a new business climate in 
store for our travelers. Charges are being assessed for checked 
luggage, additional fees added for booking reservations over 
the phone, charging extra for premium seats, expanding use of 
kiosks for checking in, rather than in person, and even 
charging for soft drinks. All of this leads me to question 
where passenger service really stands. Are all the charges good 
only for airline profitability at the expense of passengers?
    So I appreciate all of you being here today. Thank you for 
coming, and let's share together, let's find some solutions.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman. Other members have opening 
statements?
    Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Chairman, I 
think we should heed your remarks to open this hearing today 
particularly concerning TSA personnel. I think the turnover is 
unacceptable. And I think it could be at the root cause of many 
of the problems at our airports. And we need to find out the 
root causes of this TSA personnel problem. Whether TSA sees 
this as a problem or not is dubious at best.
    I am anxious to hear from our panel members on the ways 
they plan to work together to improve checked baggage handling. 
And I look forward to a very interesting hearing. Checked 
baggage service is an integral part of customer service and can 
be a substantial expense if not done correctly.
    You have heard the figures from both the Chairman and the 
Ranking Member of this February compared to last February, 
which gives us a little hope. The numbers improved a little 
bit. But then when we look at the overall numbers from year to 
year, we have pause here.
    So I want to say to the Chair and the Ranking Member, this 
is part of a larger problem, I believe, dealing with personnel. 
And we need to have a hearing devoted strictly to that. So I 
look forward to hearing from the panelists.
    I thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman.
    Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman. I guess I 
should thank Mr. Boswell, too, I guess every member of 
Congress, because except for me, I think everybody, maybe a 
couple of other members, gets on a plane. And it does say 
something that we don't simply have hearings on what 
immediately affects us. Indeed, we have been devoting the time 
of this Committee, quite justifiably, to an overarching issue, 
to the security issue.
    But I believe if you asked the average American what most 
vexes you, security or baggage handling, that baggage handling 
would come first. Now, I don't endorse that choice. But it goes 
to the everyday effect that this issue has on the average 
traveler who gets on a plane. The Committee has spent most of 
its time on the overarching issues, I mentioned security, 
financial state of the airlines, my goodness, worsened by the 
present gas crisis. They do have a lot on their hands. But 
anybody who gets on a plane has a right to believe that not 
only will she get there, her bags will get there, too.
    Now, this is a very timely hearing, Mr. Chairman, because 
we are beginning the vacation period when many people will in 
fact be getting on a plane. I think it's very important to see 
where TSA is right now this month before that period begins.
    Now, I am the first to say that I feel for the baggage 
handlers. I think it is a very hard job. And I think errors are 
inevitable. That is why the whole move to some kind of 
technological fix would be so important. I don't think we 
should shoot the messengers or the people who are down there 
trying to sort that baggage out, getting it with the impatience 
that the American people show if they don't get their bags 
instantaneously when they get off. I have frankly been 
impressed often by how much more rapidly the bags in fact get 
to where we can pick them up. But of course, if you don't get 
to pick yours up, then real anguish sets in.
    Mr. Chairman, if I may say so as well, this Committee's 
work was responsible for restarting general aviation at 
National Airport, one of those hugely belated and unnecessarily 
belated matters. Of course, what came into play was a monster 
of an unnecessarily cumbersome, awkward, ridiculous system, 
gateways, as if somehow we could not put together a way to get 
general aviation here safely and protect what is also on the 
ground. At some point, Mr. Chairman, I think we are going to 
have to ask TSA and all those involved when we are going to get 
off of this system. The Committee pressed and we no longer have 
to--
    Mr. Mica. Will the gentlelady yield?
    Ms. Norton. Yes, sir.
    Mr. Mica. I am glad you mentioned that, I don't see the 
gentleman from North Carolina, Mr. Hayes, we were discussing 
that this morning. While staff and members are here, I would 
like to have a meeting before we go out for Memorial Day, 
probably have to be closed door, because there are security 
issues that get drawn into this on the National reopening. I am 
not at all a happy camper with what hasn't taken place.
    So I am glad you mentioned that. We have been distracted by 
other priorities but it is absolutely certain that Mr. Costello 
and others agree that we go back to that.
    So we will do that, and I ask staff to schedule something 
before we go out, and thank you again for raising it. I yield 
back.
    Ms. Norton. Thank you very much, Mr. Chairman. Because your 
work, the work of this Committee, was responsible for getting 
it open in the first place. I don't think we should let that 
rest what we now have.
    The work of this Committee in pressing to see whether it 
was really necessary to make people, if you will forgive me, 
hold their water a half hour before and after your coming into 
Washington finally resulted in people saying, you know what, I 
think there is enough security all around so that we can treat 
people coming in and out of Washington humanely, that is the 
only way I can put it, for those who did not remember to take 
care of themselves in time before getting on the plane.
    In the same way, I think all the witnesses have heard the 
Chairman, we had to press so hard that the Chairman of the Full 
Committee threatened to hold those who were responsible in 
contempt and then finally something happened.
    I thank you very much for this hearing, Mr. Chairman, which 
I think the American people will appreciate, particularly this 
season. I very much thank you for the meeting you say you are 
going to hold on general aviation at National Airport. Thank 
you very much.
    Mr. Mica. Thank you.
    If there are no further opening statements from members, we 
will go ahead and proceed with our panel of witnesses.
    Let me introduce our witnesses. We have Mr. Samuel 
Podberesky, Assistant General Counsel for Aviation Enforcement 
and Proceedings, with the Department of Transportation. I am 
told he is accompanied by Mr. Michael Cirillo, Vice President 
of Systems Operations Service, of the Air Traffic Organization.
    We have Ms. Charlotte Bryan, Acting Assistant Administrator 
for Transportation Sector Management, with the Transportation 
Security Administration. And Mr. John Meenan, Executive Vice 
President and Chief Operating Officer of the Air Transport 
Association.
    So I would like to welcome our witnesses, and if you have 
any lengthy documents or material you would like to have added 
to your statement, a request to the Chair would be appropriate.
    With that, I will first call on Mr. Samuel Podberesky.

  TESTIMONY OF SAMUEL PODBERESKY, ASSISTANT GENERAL COUNSEL, 
AVIATION ENFORCEMENT AND PROCEEDINGS, UNITED STATES DEPARTMENT 
  OF TRANSPORTATION, ACCOMPANIED BY: MICHAEL A. CIRILLO, VICE 
      PRESIDENT, SYSTEMS OPERATIONS SERVICE, AIR TRAFFIC 
 ORGANIZATION; CHARLOTTE BRYAN, ACTING ASSISTANT ADMINISTRATOR 
 FOR TRANSPORTATION SECTOR NETWORK MANAGEMENT, TRANSPORTATION 
    SECURITY ADMINISTRATION; JOHN M. MEENAN, EXECUTIVE VICE 
     PRESIDENT AND CHIEF OPERATING OFFICER, AIR TRANSPORT 
                          ASSOCIATION

    Mr. Podberesky. Mr. Chairman, members of the Subcommittee 
on Aviation, I am pleased to be able to appear before you to 
comment in airline mishandled baggage. With the Subcommittee's 
approval, I would ask that my written testimony be included for 
the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Podberesky. Some background on the functions of my 
office may be useful to the Subcommittee in understanding our 
involvement with baggage issues. Our first priority is to 
enforce DOT's aviation requirements with the exception of those 
dealing with safety and operational issues that are under the 
purview of the Federal Aviation Administration.
    The office also processes complaints received from the 
public regarding airline service, and publishes information to 
consumers, including a monthly air travel consumer report that 
contains useful information for consumers on flight delays, 
complaints. That includes complaints to DOT about baggage 
service, mishandled baggage reports filed with airlines by 
passengers and over-sales.
    With respect to baggage issues, there are two Department 
rules that specifically address airline mishandled baggage. 
Fourteen C.F.R. Part 234 is the first. It requires reporting of 
mishandled baggage by each large air carrier. And 14 C.F.R. 
Part 254 is the other, and it limits liability limits, minimum 
liability limits, for lost, stolen, damaged or delayed baggage 
in domestic service.
    Under Part 234, each large U.S. air carrier is required to 
report to DOT monthly on the number of its domestic 
enplanements and the number of mishandled baggage reports that 
have been filed with the carrier by its passengers. Under Part 
254, the Department sets a floor on the liability limit that 
carriers may assert for lost, stolen, damaged or delayed 
baggage. The current limit is $2,800 per passenger, and it will 
increase with inflation.
    Maintaining a reasonable liability limit is an incentive 
for air carriers to minimize the incidence of baggage 
mishandling. For international travel, passenger baggage 
liability limits are generally governed by the Montreal 
Convention and are currently set at about $1,460 per passenger.
    I would next like to discuss possible trends in how 
carriers are handling baggage. Table 1 in my written testimony 
examines yearly data since 2000. The calendar year rate of 
mishandled baggage reports by passengers declined from 5.29 
reports per 1,000 passengers in 2000 to 4.55 in 2001. In 2002, 
this rate declined again to 3.84. Between 2003 and 2005, the 
rate has increased from 3.84 to 6.04.
    However, even this recent rate of 6.04 is much lower than 
the comparable figure for 1988, the first full year that these 
data were collected. Some of the same trends I just mentioned 
are also observable in the complaints received by the 
Department directly from consumers.
    Table 2 of my written testimony is a tabulation of 
mishandled baggage reports for the first quarter of 2004, 2005 
and 2006. This table shows that the rate of such reports 
declined from 6.72 in the first quarter of 2005 to 6.24 in the 
first quarter of 2006. The data for the individual months in 
the first quarter of 2006 shows that the rate declined steadily 
from 6.92 in January to 6.08 in February and to 5.81 in March, 
2006.
    As also noted in Table 1, the number of air carriers 
required to file mishandled baggage data with the Department 
has varied over time. We compared the 2000 data to the 2005 
data for the nine carriers that appeared in both reports. While 
the rate of mishandled baggage reports increased from 5.29 to 
6.04 reports per 1,000 passengers between 2000 and 2005, the 
corresponding increase for the nine airlines that appeared in 
both reports was only from 5.25 to 5.54, as is shown in Table 
3.
    There may be a relationship between on-time performance and 
the rate of mishandled baggage reports. As shown in Table 4, 
system-wide on-time performance for the carriers that report 
this information improved nearly 5 percentage points from 2000 
to 2001, and nearly 5 points from 2001 to 2002. During that 
same period, the rate of mishandled baggage reports declined 
from 5.29 to 3.84. During the 2003-2005 period, on-time 
performance declined from 82 percent to 77.4 percent, and the 
rate of mishandled baggage reports rose from 4.19 to 6.04.
    In addition, recent increases in mishandled baggage reports 
and consumer complaints about baggage may result in part from 
the particular difficulties experienced by U.S. Airways and 
ComAir during the December holiday period. One-time anomalies 
are not likely to be repeated on a regular basis. However, U.S. 
Airways' baggage handling problems continued well into 2005 and 
may have reflected labor issues.
    In this regard, it should be noted that if U.S. Airways is 
removed from Table 3, the change in the rate of mishandled 
baggage between 2000 and 2005 for the group of carriers that 
reported in both those years goes from a slight increase to a 
slight decrease.
    We would also observe that there is a significant variation 
among carrier baggage data based on the nature of their 
operations. Table 5 shows this clearly. For example, in 2005, 
the mishandled baggage rate for Hawaiian Airlines was 2.9, 
while the rate for Atlantic Southeast Airlines was 17.4. 
Carriers like Hawaiian, with limited interlining, few or no 
commuter carrier affiliates and smaller route systems generally 
have lower mishandled baggage rates. Larger carriers with 
extensive hub and spoke networks and numerous connections and 
the regional partners of such carriers tend to have higher 
rates of baggage problems, since many baggage delays and losses 
appear to occur during connections.
    In conclusion, there can be variations over time and among 
carriers and baggage handling performance. The data available 
to us do not appear to point to a systemic problem at this 
time. I would be happy to take your questions. Thank you.
    Mr. Mica. Thank you, and we will hold questions until after 
we have heard from the other witnesses.
    We have Charlotte Bryan, who is with the TSA. We recognize 
her next.
    Ms. Bryan. Thank you. Good morning, Congressman Costello 
and distinguished members of the Subcommittee.
    I am Charlotte Bryan, the Acting Assistant Administrator 
for the Transportation Sector Network Management within TSA. 
TSA provides, TSNM, which I lead, provides a single focal point 
for our stakeholders through ten modal general managers.
    Prior to accepting this position, I spent 15 years working 
in aviation security. I am pleased to have the opportunity to 
appear before you today on behalf of TSA to discuss the 
challenge of mishandled baggage in our aviation system and 
TSA's efforts to work with airlines to improve it.
    The Aviation and Transportation Security Act, which created 
TSA, requires us to screen for explosives all checked baggage 
placed on TSA-regulated commercial flights. Under this 
requirement, we screen approximately 1.3 billion pieces of 
checked baggage each year, using a variety of solutions, many 
custom-tailored, to suit the needs of particular airport 
environments.
    TSA assumes a limited role with respect to checked baggage 
handling. We are responsible for checked baggage from the time 
it is presented for screening until the time it is cleared 
after screening. Once checked baggage is screened and cleared, 
air carriers are responsible for transporting it to its final 
destination.
    TSA generally has no role in prioritizing, sorting or 
transporting checked baggage. As a result, the amount of time 
checked baggage is under our control is relatively short, 
though it will vary depending on the operational conditions of 
the airport. In many cases, passengers have the opportunity to 
deliver checked baggage directly to TSA and to observe it as it 
is screened and cleared and delivered to the airline.
    TSA has a solid track record when it comes to appropriately 
handling all forms of passenger property, including checked 
baggage. Since we assumed responsibility for aviation security, 
more than 2 billion passengers have been screened, yet the 
number of planes alleging lost or damaged property is only 
approximately 84,000. The incident of damage and loss 
attributable to TSA security operations is less than 1 percent 
of passengers traveling through the system. But we continue to 
work diligently to reduce delays, damage and loss of property.
    A certain amount of damage to bags and their contents 
unfortunately occurs because accidents happen and equipment 
malfunctions. In an effort to reduce the number of items 
damaged during the screening process, TSA engages in trend 
analysis to develop new training and handling techniques. TSA 
certainly regrets that occasionally checked baggage and locks 
are damaged by secondary screening. In the event that a bag 
must be forced open, TSA is not responsible for broken locks or 
unavoidable damage caused by opening a locked bag. Passengers 
can avoid this potential damage by either leaving their bags 
unlocked or by using a TSA-recognized lock.
    We educate the traveling public about how to pack and 
secure checked baggage through our web site, www.TSA.gov. The 
site provides links to sites that sell TSA-recognized locks.
    Theft is a problem that affects all key players in the 
aviation industry, and unfortunately, TSA is not immune. We 
have a zero tolerance policy towards theft. Our transportation 
security officers are held to the highest professional and 
ethical standards. Allegations of misconduct are aggressively 
investigated, and when infractions are discovered, offenders 
are swiftly removed from our agency's employment.
    Since August of 2002, of the tens of thousands that have 
served, 87 TSOs have been removed from employment for theft. 
Many of the offending screeners were turned in by their fellow 
employees.
    TSA also works with State and local law enforcement to 
ensure that offenders are prosecuted. In an effort to further 
deter theft, TSA is working to expand its use of closed circuit 
TV surveillance of non-public areas where checked baggage is 
screened, in partnership with airport operators. If a passenger 
believes that his or her property has been lost, damaged or 
stolen due to TSA action, they are encouraged to contact TSA as 
soon as possible. Although a claim maybe filed within two years 
of the event, the earlier a claimant contacts TSA, the easier 
it will be to investigate and to make a determination of the 
claim. Potential claimants can get information about filing 
claims from a number of sources, including a toll-free customer 
contact center and our web site. These resources can provide 
potential claimants with the information and forms necessary to 
file a claim.
    TSA investigates and evaluates claims by verifying the 
underlying facts and contacting the claimant and other parties 
in possession of relevant information. When an investigation is 
complete, TSA will approve the claim for full value, offer to 
settle the claim at reduced value, or deny the claim in its 
entirety. Determinations of negligence are based upon the 
evidence. A letter will be sent to the claimant informing them 
of TSA's decision. Claims are generally resolved within 90 
days.
    TSA has historically accepted or settled 40 percent of the 
claims. If a claim is denied in full, the passenger can seek 
reconsideration of the claim with TSA by providing additional 
information, or the claimant can file a lawsuit in the 
appropriate U.S. district court. State and local small claims 
courts have no jurisdiction over claims against the Federal 
Government. To date, only 35 claims have resulted in Federal 
litigation.
    TSA also encourages passengers to contact their air 
carriers and review any applicable insurance coverage they may 
have. Since February of 2002, we have received approximately 
84,000 claims. In 2006, claims have fallen dramatically, with 
the number of claims during the first quarter of this year down 
by approximately 30 percent from the same time period a year 
ago, to an average of about 1,800 a month. The average claim is 
settled for approximately $150.
    Thank you for the opportunity to testify today, and I will 
be pleased to respond to questions.
    Mr. Mica. Thank you, and we will hear from our final 
witness, which is John Meenan. He is with the Air Transport 
Association. Welcome, and you are recognized.
    Mr. Meenan. Thank you, Mr. Chairman. I would ask that my 
written statement be included in the record.
    Mr. Mica. Without objection.
    Mr. Meenan. I would like to preface my oral remarks today 
with an apology. As a former baggage handler myself and a 
representative of the airline industry, I would like to 
apologize to everyone who has ever lost or had a bag misplaced. 
We don't like it happening.
    Safety is always the airlines' number one concern and 
priority. But the quality of the customer experience is 
absolutely critical to every airline's business plan. The 
airlines are acutely aware that baggage miscues can be 
frustrating and remembered long after dozens of other trips 
came off without a hitch. For that reason, the industry is not 
content that over 99 percent of bags arrive with the passenger 
as promised. When we see an uptick in mishandled baggage 
reports or in any other measure of customer dissatisfaction, 
the carriers take action.
    In order to add a little perspective to your consideration, 
a few facts might help. Last year, the U.S. airline industry 
carried 739 million passengers. That is the highest number 
since 2000. That filled 77.6 percent of the seats on our 
aircraft. And each passenger checked on average 1.2 bags.
    Last year, too, we know the DOT reported mishandled bags 
rose, reports rose from 4.9 per 1,000 passengers to 6. Now, 
although going back to 1988 when the data was first reported, 
the 2005 data is not out of line. The industry clearly wants to 
keep that rate as low as possible. The rate was 5.0 in 1989 
when we entered into our Customers First program. It rose a bit 
with demand in 2000. In 2001, as traffic declined, the rate 
declined. And since 2001, as traffic has returned, 
unfortunately the rate has climbed with it.
    What to do? Obviously look to the causes of baggage 
mishandling incidents and adjust the process where necessary. 
For the most part, that analysis and adjustment must and does 
take place at the individual carrier level. Is it a staffing 
problem, is it at a particular airport, is there an equipment 
problem, is there a scheduling problem? These issues are dealt 
with at each company, by each company, and each company closely 
monitors both its operations and the DOT reports.
    More broadly, at the industry level, are there steps to be 
taken? There are many proponents today of new technology. The 
most popular idea being the introduction of radio frequency 
chips in bag tags. The industry is engaged in a serious 
consideration of the RFID approach. But the analysis is by no 
means complete.
    Importantly, RFID technology does little to address the 
most common cause of mishandling, and that is the fact that the 
bag is not where it is supposed to be. We know where it is, it 
just isn't where it is supposed to be. So 60 percent of the 
mishandled bags are a result of that issue which would not be 
addressed by RFID technology. That said, the industry is still 
looking at the possibility and the prudence of an investment, 
and we will take appropriate action.
    Other mishandling factors within the airlines' control 
include things like tagging errors, loading errors and space 
and weight restrictions. Each carrier tracks its operation and 
does its best to deal with these issues. But in the aggregate, 
they really only amount to about a single digit percentage 
point of the problem.
    There are, however, two other significant factors in 
mishandled baggage that are not within the control of the 
airlines. I point these out not to shift responsibility, but 
just to give you a complete picture. We urge that all parties 
do everything within their control to minimize passenger 
inconvenience. Here of course I am referring to the air traffic 
control system and security issues impacting baggage handling 
and schedule reliability.
    As the members of this Committee know, the constantly 
increasing demands placed on our Nation's air traffic control 
system threaten aviation system gridlock in the foreseeable 
future and require a major overhaul of technology, procedures 
and funding. Without dramatic change, mishandled baggage 
reports will simply become a footnote to the economic harm that 
will be done to our Nation's economy.
    Similarly, with regard to security measures, steps must be 
taken to match screening capacity with public demand in an 
economically responsible manner. Inline EDS may help at some 
airports, but experience to date shows that it is not a silver 
bullet to solve these issues.
    In conclusion, Mr. Chairman, we are all involved in these 
issues. The ATA airlines are acutely aware of their 
responsibilities and are working daily to meet them. We look 
forward to the continued cooperation with the Government in 
addressing those contributing factors not within our control.
    Thank you very much.
    Mr. Mica. Thank you for your testimony and for each of the 
witnesses being with us and providing their opinion and 
outlook.
    Let me now turn to some questions. I have a few. Maybe I 
could ask ATA first. You said we had 739 million passengers 
last year, I guess close to a record number or was it a record?
    Mr. Meenan. It is climbing.
    Mr. Mica. What do you expect this year, and this summer?
    Mr. Meenan. We expect a dramatic uptick. I couldn't give 
you a precise number at this point, but clearly traffic is 
returning.
    Mr. Mica. And did you say you were running at what 
percentage of capacity?
    Mr. Meenan. Last year, the load factor was 77.6 percent. We 
expect it will be higher this year.
    Mr. Mica. Probably into the 80s?
    Mr. Meenan. Possibly. We would like to see that.
    Mr. Mica. Even with the higher prices, we might have a 
return to the air.
    Mr. Meenan. We would like to see that.
    Mr. Mica. We really don't have a system, Mr. Podberesky, of 
differentiating the cause of mishandled baggage, do we?
    Mr. Podberesky. The reporting that is required is just the 
number of mishandled baggage reports filed with carriers by 
passengers. It is not broken down by type of mishandling.
    Mr. Mica. And that is part of our problem is trying to--Mr. 
Boswell, the reason he asked for this hearing was to try to 
find some solutions. We don't have some of the data we need. 
Anecdotally, I do hear, and I have heard, of meltdowns at some 
locations with TSA handling bags. And that is becoming more of 
a problem.
    Part of the problem, I guess, too, Congress has put a cap 
on the number of people that can be hired. So we have some 
limits, the same limits we had last year we will have this year 
as far as net numbers. We also have the turnover problem, which 
Mr. Pascrell spoke to, and we heard the report last week, some 
airports 30, 40 percent turnover in personnel. But it appears, 
again, from reports I am getting, that baggage is often not 
processed as far as screening to keep up with the flights. Is 
that something you are aware of, Ms. Bryan, as a problem, and 
how are you trying to address it?
    Ms. Bryan. Mr. Chairman, I have the latest air travel 
consumer report that the Department produces. It shows for 
February, which is the latest information I have, of over 
500,000 reported operations, less than 0.9 percent were due to 
security delays. And of course security delays can be--
    Mr. Mica. I would have to go back to some of last year, 
last summer.
    Ms. Bryan. Yes, sir.
    Mr. Mica. We had some very serious--and I can pick a time. 
But we are heading for the summer. ATA has just reported that 
they expect a record number of people to be in the air. You 
have a record amount of turnover and vacancies in personnel. 
And we are going to be processing more bags. I think you said 
on average 1.2 bags per person.
    So if you do the math in processing these, are we going to 
be ready this summer?
    Ms. Bryan. Perhaps I could talk about a few of the things 
that we are doing. Retention is a top priority for TSA. We have 
recently done several things. We have a work group focused 
specifically on it. We just put out a bonus program for 
screeners that have been on board for a year or more. We are 
developing additional grade levels, a career path for our 
screeners so that we can keep them, that they can see some 
possible future with TSA.
    Of course, we have just introduced local hiring initiatives 
for our FSDs. We have set up a group in headquarters to support 
them, so that they have everything they need to hire and train 
and retain those screeners. So it is a high priority and I 
think we have some good efforts underway to support that.
    Mr. Mica. I understand that. I was just mentioning to Mr. 
Costello, I did meet with Mr. Hawley, and I understand that 
initiative really gets launched in May or this month?
    Ms. Bryan. Yes, sir.
    Mr. Mica. That gives me great concern, because any time you 
launch anything in TSA, it does take a while for things to sort 
of get in place and smooth out. So I just--I am very concerned 
about this summer. I don't know what the answer is, again, 
given some of the constraints you've even been put under.
    So let me just ask, the number of inline systems we have at 
major airports, I said three. One is Boston, we have San 
Francisco, and the top 25, 29, I guess we could get--Denver--
    Ms. Bryan. Mr. Chairman, I thought we had 14 full inline 
systems.
    Mr. Mica. Here's what they gave me, Logan, which is Boston, 
Denver, San Francisco, that is it for the top 25 and full 
inline. We have got some partial, a little bit at Baltimore-
Washington, a little bit at Dallas, a little bit at Newark, 
George Bush Intercontinental, JFK. But that is it.
    And I think of the top, well, Denver, I think they did 
theirs when they did that entire system, didn't they? I know 
Boston did their own. And we are seeking reimbursement. And San 
Francisco has been ongoing.
    Is there any projection as to when we could get--29 
airports handle 75 percent of the traffic and probably are the 
major hubs where we have transfer. Any projections about 
inline?
    Ms. Bryan. Yes, sir. In the near future we will have 23 
additional inline or partial systems in place.
    Mr. Mica. Can you define near future?
    Ms. Bryan. Two years.
    Mr. Mica. Twenty-four months, okay. I don't view that, as 
Mr. Meenan said, as a silver bullet, but so far experience is 
that process is faster. I haven't seen any of those systems 
file workers comp claims, as I said, or the systems call in 
sick or the systems have high turnover rates, except the 
baggage, they're processing that pretty fast. You've seen the 
classified results of the difference between handling the 
baggage and examining them by hand--
    Ms. Bryan. Yes, sir.
    Mr. Mica.--with labor-intensive versus the automated. Would 
you say that the detection rate is off the charts in a positive 
fashion for the automated system and off the charts for failure 
for the non-automated systems? We don't have to discuss 
percentages of failure for the labor-intensive, costly system.
    Ms. Bryan. Well, I would rather not say that, because I 
don't have that information.
    Mr. Mica. Are you telling me you haven't seen that 
information?
    Ms. Bryan. I have seen that information.
    Mr. Mica. But you don't want to comment on it?
    Ms. Bryan. No, sir.
    Mr. Mica. Okay.
    Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Chairman, I am glad that you noted the issue of the 
cap, because I think that is an issue here as well. You also 
noted, as others did, about the turnover rate at TSA. It is 
troubling, and I am glad to hear that TSA is attempting to do 
something about that.
    But I do think that it is worth noting for everyone in the 
room here is that, the turnover rate under the old system, 
before TSA was created, was far greater than the turnover rate 
of TSA. If you look at O'Hare International Airport in Chicago, 
I don't have the statistics in front of me, but I would tell 
you that the turnover rate at O'Hare was at least double or 
triple their turnover rate today at TSA.
    My question to you is, would you agree that the turnover 
rate has an effect on the issue that we are examining here 
today, the mishandled baggage? How does that play? What factor 
is the turnover rate at TSA in the problem that we are dealing 
with in mishandled bags?
    Ms. Bryan. Congressman, first I would like to say that I 
recall turnover rates of over 400 percent with some of the 
carriers back in the pre-9/11 days. I would think intuitively, 
certainly folks that are working for us longer are going to be 
better trained and more familiar with our procedures.
    So I don't have the data to support that, but intuitively, 
I would think that that would be the case.
    Mr. Costello. You mention in your testimony that thus far 
in 2006, the passenger claims of mishandled baggage, that it 
has fallen dramatically. To what do you attribute that?
    Ms. Bryan. We are trying to educate the public and the 
screeners better. We have told the public, both on our web 
site, try not to over-pack. You can open a bag and things fall 
out, they sometimes don't get back in or they get damaged. 
Carry your valuables or leave them at home. And we have ethics 
training for screeners, and just better training for the 
screeners.
    Mr. Costello. I guess this probably would go to you from 
ATA, but I would ask everyone on the panel. First, there are 
some problems, I guess, with RFID technology addressing this 
issue. This hearing is billed as examining mishandled baggage 
problems and solutions, and reading the testimony of our 
witnesses here today last night and hearing your testimony 
today, I think we all have identified the problem. But I 
haven't heard a lot of concrete solutions here this morning. I 
wonder if you might comment on RFID technology and any other 
solutions that you might propose today.
    Mr. Meenan. Mr. Costello, I think the solution, as I 
suggested in my oral statement is, each carrier looking at its 
individual operation and determining where these incidents are 
occurring and addressing those incidents. It is often a 
staffing problem. It can be an equipment problem. It can be a 
particular problem at a given airport. But they are highly 
individualized issues.
    RFID technology is an interesting concept. It is something 
that we are certainly looking at. But it is not, despite what 
the vendors have been trying to say, some panacea that is going 
to fix the problem of mishandled baggage. Because as I noted, 
over 60 percent of the bags that are mishandled are not 
mishandled because we don't know where they are. They're 
mishandled, we know where they are, but they just aren't where 
they are supposed to be. An RFID chip isn't going to help 
address that problem.
    So we think this is really a very individual, carrier by 
carrier sort of set of issues, and we are working to address 
that. I think as the numbers demonstrate from 1988 on forward, 
this is truly a manageable problem. We would, I think, make a 
mistake by over-investing in technology and thinking that is 
going to fix it. Because it is a day in and day out sort of 
affairs.
    Mr. Costello. Do any other witnesses want to comment on the 
RFID technology or any other solutions?
    Ms. Bryan. I would like to add that we have asked the 
airlines to help us prioritize bags. We are doing that pretty 
much on a local level. We are working on software programs that 
will help increase the throughput for our EDS systems. We have 
developed optimization teams that are reviewing schedules and 
equipment mixes, ergonomics and operational conditions. So we 
are hoping that will help.
    Mr. Podberesky. The purpose of our mishandled baggage 
reporting rule, the original purpose and it is still the real 
purpose, is to provide data that we use in rankings, in monthly 
rankings and yearly rankings of carriers with respect to their 
handling of baggage. This is supposed to help consumers choose 
carriers based on things that are important to them. We try to 
publicize this information. We may try harder to point out 
which carriers are doing the best and which are doing the 
worst.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Dent?
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Podberesky, I have a question for you. You suggest that 
there is a relationship between on-time performance and the 
rate of mishandled baggage. What are the most common causes of 
flight delays based on the data published in the air travel 
consumer report? And to the extent that these delays are due to 
weather conditions or air traffic control problems, what is the 
FAA doing to address these issues?
    Mr. Podberesky. I will start with the two categories that 
are the smallest. We require a reporting of I believe five 
categories. Security delays I believe are the smallest, and I 
believe the next smallest are extreme weather delays. Those are 
like thunderstorms closing airports for many operations.
    The next three categories are all about in the same 
ballpark. They account for somewhere between 4 and 7 or 8 
percent of delays. And they vary from month to month. Those 
categories are carrier caused delays, which are primarily 
maintenance, but it could be maintenance related, but it could 
be crew, flight and duty time restrictions or other issues.
    Another category is national airspace system, which 
involves the air traffic control system, but also involves 
weather related issues, not extreme weather, which impacts on 
the flow rates and other issues in the air traffic control 
system. And the final category is late-arriving aircraft. And 
late-arriving aircraft could involve any one of the others as 
original causes of the delays.
    With that, I will turn it over to Mike Cirillo, to see if 
he has anything he wants to add from the FAA perspective.
    Mr. Cirillo. The way we categorize delays, 70 percent are 
attributed to weather, and then 15 percent to volume, and then 
the remainder are other issues, or less than 1 percent are 
attributed to equipment and the balance of the delays are other 
issues, such as airport construction and things like that.
    So what are we doing about that? In a good weather 
situation, the volume delays are just a matter of balancing 
capacity with demand. So to increase capacity, those programs 
that you have all heard about, such as required navigation 
performance and precision runway monitors and our wake 
turbulence research, for example, actually show pretty 
significant benefit in improving capacity at airports.
    As far as improvements in weather, we have some systems 
that we are developing, corridor integrated weather system, 
which allows us to better predict the movement of storms, and 
also the tops of the system. We have a route availability 
planning tool that actually automates our route availability 
based on weather conditions. And then this June, we are 
implementing the airspace flow program, which actually for us 
and our customers, which includes the airlines, the business 
folks and the DOD, will describe an area of constraints, which 
is most of the time weather, and better allow us to route 
around it.
    Mr. Dent. Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Thank you.
    Mr. Pascrell?
    Mr. Pascrell. Ms. Bryan, do you think that, you referred to 
the 400 percent turnover before 9/11, that was a different 
situation now, we have Federal employees. It's a big 
difference.
    Ms. Bryan. Yes, sir.
    Mr. Pascrell. And we had rent-a-cop then. We don't have 
that now.
    Ms. Bryan. Right.
    Mr. Pascrell. So you are comparing oranges and apples.
    Would you agree with this statement, though, that 
information concerning on-time records and what are the loss 
and damage rates with that particular, with a particular 
airline, shouldn't that information be readily available to 
passengers?
    Ms. Bryan. Yes, sir, I think it should be.
    Mr. Pascrell. How would we educate passengers as to, so 
they can make an educated decision as to which airline is 
trying, is moving in the right direction in protecting their 
property and getting on and off the ground on time? How do we 
educate the public in those things?
    Ms. Bryan. I would really rather defer to DOT.
    Mr. Costello. Mr. Podberesky?
    Mr. Podberesky. We publish an air travel consumer report 
every month. It is put on our web site. It is probably, I 
believe as of now it is the second most popular web site at 
DOT. It is one of most popular web sites, I think, in the 
Government.
    And on a monthly basis we provide flight delay information, 
very detailed flight delay information, as well as mishandled 
baggage. These include rankings of airports, of carriers.
    Mr. Pascrell. And that winds up in a newspaper sometimes?
    Mr. Podberesky. We issue press releases each month, and USA 
Today does publish--
    Mr. Pascrell. Yes, I've seen it.
    Mr. Podberesky.--a good bit of that information.
    Mr. Pascrell. Mr. Podberesky, let me respond to your 
answer. I think that's all well and good, by the way. Web sites 
certainly serve a great purpose. What if we put that 
information on the ticket that you purchase?
    Mr. Podberesky. That would create somewhat of a burden for 
carriers. The information is also available to the passenger 
directly for a specific flight when he makes a reservation.
    Mr. Pascrell. So you are telling us that the passenger, 
because of what you do on the web, the passengers is usually 
aware of what those percentages are, which are kept updated, I 
am sure, on the web site? Do you think that's true, that the 
passenger is aware of that? Do you think the web site does the 
trick?
    Mr. Podberesky. I believe it does for some passengers. But 
I have also found that, for example, passengers making 
reservations with an airline can, when they call the 
reservation agent, the reservation agent has the information in 
front of you to provide that customer specific information for 
the prior month, for the specific flight that the passenger is 
reserving.
    From what we understand, not a lot of passengers avail 
themselves of that opportunity for information.
    Mr. Pascrell. Which is my point. Which is my point. So 
maybe we ought to take a look at how we are educating the 
public and the flying public to those facts and figures, so 
that they can make an educated decision about that particular 
airline.
    I want to ask you another question. Because checked 
baggage, Mr. Podberesky, is processed by both individual 
airlines and the TSA, a passenger whose baggage has been 
damaged or pilfered must file two claims, one with TSA and one 
with the airline. To me--educate me--sounds like a time 
consuming and duplicative process for the consumer. Are there 
any plans to simplify or integrate the claims procedure?
    Mr. Podberesky. My understanding is that TSA has been 
working with carriers over time to try to resolve issues having 
to do with the interplay of their--
    Mr. Pascrell. Is that an issue?
    Mr. Podberesky. When we get a complaint from a consumer or 
a question of the consumer about what to do with respect to a 
baggage liability issue, we tell them to file a complaint with 
both.
    Mr. Pascrell. Ms. Bryan?
    Ms. Bryan. Yes, sir, it is an issue. We have been working 
with the carriers, but we have got a couple of stumbling 
blocks. Our claims fall under the Federal Tort Act, and I 
believe the carriers fall under the Contract of Carriage. I 
think they have 60 or 90 days under the carriers, and they have 
up to 2 years under ours. So we are looking at whether or not 
we need some legislative change.
    Mr. Pascrell. So maybe we are going in that direction, 
then?
    Ms. Bryan. Yes, sir.
    Mr. Pascrell. What do you think?
    Ms. Bryan. Yes, sir.
    Mr. Pascrell. Mr. Cirillo, the FAA is currently in the 
midst of an airspace redesign for our Nation's major airports. 
We have been talking about it for a long time. You folks have 
been going through the painful attempts to make everybody 
happy. I don't know how you can do that.
    But what if any effect will this have on flight delays and 
their contribution to baggage mishandling, in your opinion?
    Mr. Cirillo. In my opinion, the design of the airspace is a 
key component of the efficiency of the system. So we consider 
airspace redesign as absolutely essential to the efficiency of 
the system.
    Mr. Pascrell. So this is what is being, these are things 
that are being taken into account as we design a new system?
    Mr. Cirillo. Yes, sir.
    Mr. Pascrell. Okay. Have you reported to the Congress on 
those factors, on how factors within airports and passengers 
have affected your decisions about where airplanes go and how 
they approach airports and how they take off?
    Mr. Cirillo. I don't know that the FAA has. I don't have 
any knowledge that we have specifically related to that 
subject.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Chandler?
    Mr. Chandler. Thank you, Mr. Chairman.
    Very few things are as frustrating as losing a bag. And I 
think that any of us who have done much traveling through the 
air have had that experience happen to them.
    One thing that I am not clear about, and I would appreciate 
it if you could just walk me through this process, how is a 
claim filed? When you go the baggage area and you stand there 
and you wait and the thing goes around and around and your bag 
doesn't show up. What do you do? From that point on, how does 
that process work, if you could tell, just walk me through it 
in lay language.
    Mr. Podberesky. I'll try, in lay language, if your bag 
doesn't come off the conveyer belt, the next point in the 
process is that you have to go to a baggage claim area, an 
office usually that the carrier has, or one of its affiliated 
carriers has that will then take the claim, take down 
information, personal information about you or the contact 
information, as well as detailed information about the bags 
that are either missing or damaged or, if you know that an item 
has been stolen, bag is open and you know that something is 
lost, they will take that information right on the spot.
    There are occasions where carriers will resolve a claim on 
the spot. There are occasions where carriers will replace a bag 
on the spot with a substitute bag, if a bag has been damaged.
    Mr. Chandler. What does that depend on? Under what 
circumstances?
    Mr. Podberesky. It depends on the carrier.
    Mr. Chandler. What circumstances? It just depends on the 
particular carrier?
    Mr. Podberesky. It depends on the particular carrier and 
its own policies. Since the bulk of the problems with bags are 
delays, usually what happens is you provide the carrier enough 
information about the bag, about your itinerary, the size of 
the bag, what it looks like, color, and the carrier then puts a 
tracer out back on the points that you have traveled on, 
looking for that bag.
    Mr. Chandler. So there is a substantial difference in the 
policies the different carriers have. I am one of these people 
that Mr. Pascrell was talking about who has no idea what the 
difference in the rates or the policies between one carrier and 
another.
    Mr. Podberesky. I think the general policies are the same. 
On occasion, a carrier will resolve minor claims with either a 
replacement bag or a cash voucher or travel voucher to resolve 
a minor claim, like minor damage to a bag or an obviously lost 
item. That makes up, I believe, a small percentage of what is 
happening.
    With respect to delayed baggage, which is the primary 
mishandled baggage group, the general approach that I gave you, 
the bag is then searched upline, from where you came from, 
along your path. And once it is found, the carrier, just as a 
general rule will then deliver that bag to you, to wherever you 
are going to be.
    Mr. Chandler. Is there an average rate of time that it 
takes to resolve a claim? Do you all have numbers on this? Can 
you answer, Mr. Meenan?
    Mr. Meenan. I believe the average claim stays open for less 
than 24 hours. By far the vast majority of these bags turn up 
on the next flight that is arriving from the destination you 
departed from.
    The carriers also, there are minor variations between the 
way the carriers handle these issues. But the fact of the 
matter is, there is also sort of industry standardization in 
terms of how the messages are communicated, how the information 
flows back and forth across the industry. I would say that by 
far the great majority of carriers respond, they know this is a 
very frustrating experience. They know that this is not 
something they want their customers to be experiencing. And 
they go out of their way to try to accommodate as best as 
possible. They provide often short term payments to get you 
over until your bag gets there, to get you the necessary 
supplies. There are all sorts of different variables that go 
into each individual case. But we do make our best effort to 
accommodate the passenger.
    Mr. Chandler. Thank you.
    Mr. Mica. Ms. Berkley?
    Ms. Berkley. Thank you, Mr. Chairman. And thank you all for 
coming. We appreciate your being here.
    I represent Las Vegas, Nevada. McCarran Airport is the 
lifeline to my Congressional district and its economic well-
being. It is also the fifth or sixth busiest airport in the 
Country. We will have 45 million visitors this year coming to 
McCarran, coming to Las Vegas through McCarran. So half of 
those people will be coming through the airport. McCarran 
Airport is very important to me.
    I have two questions directed to Ms. Bryan, if I may. The 
first one is, because all checked baggage must be screened by 
the TSA, any problems in staffing levels or scheduling can 
directly lead to the mishandling of baggage. McCarran has had 
longstanding issues with the TSA, not giving us enough 
screeners and not matching the screeners' schedule to the 
actual peak times of airline business.
    And let me give you an example. Las Vegas is a Monday 
through Thursday, we have two peak times. Monday through 
Thursday we have our convention and trade shows. They all leave 
on Thursday afternoon. Thursday night come the tourists for the 
weekend and they leave on Sundays. Now, there are obviously 
different schedules, but those are our peak times.
    What can you do to help me get more TSA screeners, not only 
more, but more at the appropriate peak times for McCarran 
Airport?
    Ms. Bryan. McCarran is one of our critical airports. As you 
may know, two of the former FSDs now work in Washington, so we 
are very familiar with McCarran. We are working very closely 
with them, with Rosemary and some of the others there, on their 
needs.
    I know there are still some issues about the numbers of EDS 
machines that we are going to put in line.
    Ms. Berkley. That was my second question. They are 
desperate for these machines.
    Ms. Bryan. Yes, and we are still negotiating that. We are 
looking at part-time, full-time mixes. I know the acting FSD is 
working very hard to come up with the right solution.
    But let me assure you that it is on the front burner.
    Ms. Berkley. May I ask, and I appreciate that, and I am 
glad that you are so familiar with our problem. When do you 
think we will be able to resolve this and when will you be able 
to contact me and give me some idea of what is going on?
    Ms. Bryan. We have had three recent EDS machines installed.
    Ms. Berkley. How many more do we need?
    Ms. Bryan. I don't have that information, but I will find 
out. Our director, our chief technology officer will be going 
out there on the 15th to discuss technological needs. And I 
know that they are down 76 screening officers. So as I said, we 
have a task force that is working on local hiring. And I will 
go back and find out specifically what they are going to do.
    Ms. Berkley. May I ask you to contact me directly in the 
office, so I can get that information to the McCarran people?
    Ms. Bryan. Absolutely.
    Ms. Berkley. I am very grateful. Thanks a lot.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Boswell?
    Mr. Boswell. Thank you, Mr. Chairman. I apologize for being 
called out by a deep concern with constituents, just on the 
other side of the door.
    I again appreciate your being here, and I am sorry I missed 
out on some of the discussion. I certainly will read the record 
and I have heard much of what has been said.
    If guess I would address maybe about three points to Mr. 
Podberesky. You gave us some data, but what steps have the 
airlines, in your view, taken since 1988 to improve their 
performance? Number two, you said in your testimony that there 
may be a relationship between on-time performance and the rate 
of mishandled baggage reports. You might say something about 
that. And also if you would, you said in your testimony there 
is significant variation among carriers' baggage data based on 
the nature of their operation.
    Would you comment on those items?
    Mr. Podberesky. Yes. I would be pleased to. The carriers 
have invested, over the last 20 or so years, what appears to be 
significant amounts of money to modernize their baggage 
handling systems. We all recall the old system where we used to 
have just these bag tags that used to have the three letter 
codes of carriers, and they were in these enormous boxes behind 
the counter and it was pretty much left to the whim of the 
check-in agent as to whether or not they pulled the right bag 
tag out to match to the ultimate destination where you were 
going.
    Nowadays you have these barcoded tags that are printed out 
by computer that are printed off your reservation record, so 
there is very little possibility of having the wrong tag 
applied to your bag. I think that has improved things to a 
great extent.
    That to me is the biggest area of improvement, some 
modernization by the carriers. Perhaps the ATA representative 
would like to add to that after I address your two other 
points.
    The relationship of on-time performance to baggage 
handling, my testimony relates, it does discuss the last five 
years. It appears over the last, since 2000, that there has 
been sort of a direct relationship that as on-time performance 
has gotten better, baggage handling rates have gotten better, 
and as it has gotten worse, baggage handling rates have gotten 
worse. That relationship doesn't hold true during all periods 
of time. If we went back to the 1988, 1989, 1990 period, and 
from 1989 to 1990, on-time performance got, I believe worse, 
and baggage handling went the other way. So it is not a 
guarantee that that is always going to work that way.
    And then among variations among carriers, I mentioned 
several of the factors, the connections, which carriers have 
the most connections. There are also certain carriers that just 
carry more bags than other carriers. If you have a shorter 
route system, if your average of your flights are shorter, then 
people are taking shorter trips, they may not be carrying as 
many bags for these trips, they may be doing more business 
travelers, fewer vacation travelers.
    Other things, carriers that have significant international 
routing systems will have, I believe will have a propensity to 
have more baggage problems, because they have to deal with 
connections between international and domestic flights, which 
also throws Customs in, as well as variables relates to 
Customs, as well as variables related to TSA, having to 
rescreen the bags once the persons leave the Customs area.
    Other issues may be carriers that operate more regional 
jets, those airplanes tend to have more bulk and weight issues. 
They don't have the size compartments and they can't carry as 
heavy a load as perhaps some of the bigger airplanes. So that 
may have an impact also.
    Mr. Boswell. Let me interrupt you just a second, my time is 
running out. The information that you gain, is it shared with 
Mr. Meenan and his group? Is there a sharing process going on 
so everybody can benefit?
    Mr. Podberesky. Well, some of this information I just gave 
you is information we get from airlines. We don't get reports 
of that, some if it is intuitive, common sense. But a lot of it 
is--
    Mr. Boswell. From your vantage point, though, do you try to 
get people to share? If you see the airline, whatever, has a 
good, better system, that information is shared with the 
others?
    Mr. Podberesky. No. We don't do that. I think ATA does that 
to an extent.
    Mr. Boswell. Is that right?
    Mr. Meenan. That is absolutely correct. We have passenger 
service, baggage service committees that meet constantly and 
share information back and forth, as well as watching very 
closely the information that is shared with DOT.
    Mr. Boswell. Okay. Again, thank all of you, and thank you, 
Mr. Chairman.
    Mr. Mica. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Meenan, representing the airlines, and I know not 
individually, but there was at least one airline that had a, 
sort of like a baggage heaven, which I have never understood, 
where they ended up with all the goods that came out of 
people's bags in this giant sort of flea market place. I have 
seen press accounts of it.
    Does that still exist? I have always been puzzled as to, 
there is a limited universe of people who have lost bags and 
there is a limited universe of bags, and how we couldn't 
reassociate people with their belongings and they had to go to 
a flea market or wholesale house or whatever it was. How is 
that?
    Mr. Meenan. It happens. The fact is that, it is in the 
airline's best interest to get that bag back to the passenger. 
But on occasion, you go through the bag, you look for every 
means of identification, you look for other ways to trace it 
back to the original owner, and it just isn't there. When that 
happens, you have to do something with the--but it is a very 
minimal part of what actually goes on.
    Mr. DeFazio. Right, but there was some small town, I think 
it was in Georgia--
    Mr. Meenan. I have seen the story.
    Mr. DeFazio.--where the economy evolved around this. I 
always found it odd. It seems that that might be, the RFID 
thing, I understand there is both expense in terms of tagging 
and the equipment to read them.
    On the other hand, people might be willing to pay for an 
RFID tag that would not impose a cost on the airline and then 
the readers are not all that expensive. People do it with pets, 
they do it with other things. Then we could not have to worry 
about the bags that could never be reassociated with people, 
because we would have permanent identification with it.
    Mr. Meenan. And as I said, there are a number of concepts 
that are currently being reviewed. One of them I have heard 
mentioned recently is the idea of embedding these tags in the 
bag itself. That is a possibility. I will say that like 
everything else, though, we want to make investments that are 
responsible and are going to pay for themselves prudently. 
Right now, the business case for RFID tags is highly debatable. 
We are looking at different ways we might approach it.
    Mr. DeFazio. Ms. Bryan, do you have any statistics on the 
airports where, for instance, let's use San Francisco, which 
has a fully integrated inline system. Do we have a lowered 
number, lesser number of complaints for damaged bags there?
    Ms. Bryan. Sir, our data does not--there is no correlation 
between the number of claims and the type of baggage system.
    Mr. DeFazio. There is none?
    Ms. Bryan. There is none currently.
    Mr. DeFazio. Looked for it, can't find one?
    Ms. Bryan. Yes, sir.
    Mr. DeFazio. That is interesting, because you would think 
that it might.
    How are you doing on, I just asked this question over in 
Homeland Security last week, how are we doing on getting 
dedicated baggage handlers who would be generally people who 
had not gone through the training to be Federal security 
officers and would be paid less, but could be like people who 
are set up better to handle heavy bags day in and day out?
    Ms. Bryan. Yes, sir, we are discussing that. Earlier I 
mentioned a career path for our screeners. This would be at the 
low end of that path. We are just looking at funding and some 
other issues right now. But we are seriously considering it.
    Mr. DeFazio. It just seems it would help with your, with 
the issue of the workers comp claims and the time loss that 
results from that.
    The other issue would be on EDS. I am surprised that the 
EDS systems, which requires a lot less handling and it seems to 
me would preclude a lot of problems, that you can't find 
statistically that they work better. We know they work better 
for other things.
    Where are we on issuing new letters of intent? You talked 
to Ms. Berkley about her airport which has been in line for 
quite some time. Are we anticipating any new letters of intent 
in the near future?
    Ms. Bryan. No, sir. The current 2006 and 2007 funding 
supports reimbursement for the existing ones, but there is no 
plans for additional ones.
    Mr. DeFazio. Well, I wish TSA would push back against OMB 
and the White House on this issue. We've shown, for instance, 
at Portland, that we could save you, in a year and a half you 
would get back your investment, and then thereafter forever you 
would be saving money. So it is extraordinary to me, and I 
can't blame this all on the Administration, the Republican 
Appropriations Committee chairman played a big role in this 
when he arbitrarily slashed the number of screeners we have, 
for whatever reason, and then said, don't worry, technology 
will take care of it, and then failed to fund the technology.
    So you can kind of do security two ways. One way is you've 
got a lot of people, not very good technology. The old 20 year 
ago model in Israel. Or you can have really good technology and 
few people. And what we have is not enough people and not the 
right technology. It is really the worst of all possible 
worlds, both for security and also for, ultimately, I think, 
for customer satisfaction and problems, as the Chairman pointed 
out, that we may bump into this summer.
    I just really wish, I know it is hard and it is not your 
call, but I keep urging everyone I see from TSA, tell us 
honestly what you need, you might lose your job, but hey, you 
will sleep better at night knowing that you told us that we 
really needed better technology at the screening checkpoints.
    Ms. Bryan. As you might know, we delivered the EDS 
strategic plan to the Congress earlier. We are working 
feverishly with our industry partners on a cost sharing study 
that we are expecting to be, the preliminary results to be 
delivered this summer. So we are real anxious to get that. 
Thank you.
    Mr. DeFazio. Okay, thank you. Thank you, Mr. Chairman.
    Mr. Mica. Just a couple of quick questions. You sort of 
surprised me when you said 87 TSA personnel have been charged 
with theft. Were all of those people, did they have the 
background checks completed or were some of the--do you have 
any statistics?
    Ms. Bryan. I don't, and we can get back to you on that.
    Mr. Mica. But I would imagine they would have all, to be 
online working, they would have had to have the screening check 
done.
    Ms. Bryan. I believe originally they were not done for the 
original hires, but I am not sure that they ever done.
    Mr. Mica. Was it 87 last year or total or what?
    Ms. Bryan. Total, sir.
    Mr. Mica. What about the airline industry? How many folks 
have you arrested? Do you have any statistics on that?
    Mr. Meenan. We do not have any statistics.
    Mr. Mica. Can you get them? I have read a few, like I think 
they had problems at JFK.
    Mr. Meenan. I don't believe anyone tracks those numbers 
directly. We can do a LEXIS search and see what we can come up 
with.
    Mr. Mica. Okay. I just want to know the baggage handlers, I 
don't want to know about the CEOs and others who are taking 
money. Just a bad joke.
    [Laughter.]
    Mr. Mica. Oh, Mr. Costello wants those statistics.
    But again, I was sort of shocked by that number. Also 
shocked by your response to the gentlelady from Nevada. Now, I 
played the game for moving TSA personnel, and I have been out 
to McCarran, and we did the McCarran dance and all of that. She 
is still obviously having problems.
    One of the problems it sounds like, you've got a 60 percent 
turnover in FSDs. Did you say there is an acting FSD at 
McCarran?
    Ms. Bryan. Yes, sir.
    Mr. Mica. Okay, so you've gotten two now.
    Ms. Bryan. There were good people. We needed them in 
Washington.
    Mr. Mica. But again, nobody in charge. When we devised this 
system, we always thought there would be an FSD directing 
things. And now we have the FSD and most of them have eight to 
ten administrative people on top of that. But now we have 
something for them to do, because in May they are going to 
start hiring at the local level.
    Ms. Bryan. Yes, sir.
    Mr. Mica. Okay, good.
    The other thing, too, and I don't know if ATA has this 
information, I asked staff to check it, if you can get it, the 
U.K. is the only country that has total inline integrated 
checked baggage, automated processing of the baggage systems. I 
visited them shortly after 9/11, and a lot of what we did is 
modeled after what they did. They told me it took $4.5 billion 
in 7 years. I think they did 38 of 41 or 42 airports.
    But I would be interested to check their baggage mishandled 
rates with those--because we would have a country with all 
inline systems. See if there is any difference just to see if 
there is anything we can gain from their experience.
    Mishandled baggage, I had estimated, well, the information 
we have worldwide is $2.5 billion. I just did a quick estimate 
that that was 2005, and this is--who gave us that data? SITA? 
Okay.
    What do you think the cost is to the U.S.?
    Mr. Meenan. We don't have a solid number on that, and I 
would mention that SITA is very interested in selling 
technology here. Any time I find a vendor who is putting 
numbers out, I always look at them skeptically.
    Mr. Mica. Okay, well, what do you estimate? I mean, I am 
not--
    Mr. Meenan. That is a number that the carriers hold very 
tightly themselves. Obviously it has competitive implications.
    Mr. Mica. You don't disclose what you pay out in claims?
    Mr. Meenan. No, we don't.
    Mr. Mica. You don't. Can you get that information for the 
Committee?
    Mr. Meenan. Let me do some checking and we will get back to 
staff on that.
    Mr. Mica. The other thing too is, now, I see TSA is telling 
me that they are paying out money and claims, and she broke it 
down into some small amounts. What is the total amount you paid 
out in 2005?
    Ms. Bryan. Oh, let's see. It's about $2 million a year.
    Mr. Mica. Okay, then the other thing is how do you 
determine, and I have been told that there have been some 
discussions with the airlines as to who is responsible for what 
amount. Now, TSA requires the bag be open, unlocked, we have 
TSA people who they have testified also have been stealing 
things from bags. Are you involved in, and again, the 
preliminary information I have is there was some discussion or 
consideration of an agreement between the airlines and TSA. 
What is the status of that and how are you going to determine 
responsibility and equity in paying these costs? Or is TSA 
stiffing the airlines? And $2 million does not sound like a 
lot. That sounds like my wife's claim for just her lost bag.
    Mr. Meenan. We have had extensive discussions on repeated 
occasions with TSA. As Ms. Bryan noted, there are some 
significant difficulties in trying to bring two very different 
approaches to these issues together.
    Mr. Mica. I want to find out if you have more thieves than 
they have. Maybe you could do it on a percentage caught basis.
    Mr. Meenan. I would mention that what has happened in the 
real world is that there is a close working relationship 
between the TSA claims people and the individual carrier claims 
people. They communicate back and forth quite effectively.
    Mr. Mica. Are you in the process of a formal agreement?
    Mr. Meenan. That I believe at this point is sort of in 
hiatus. But in a real operating world, the day to day 
interaction between those folks works pretty effectively.
    Mr. Mica. Well, I have $2.3 million being paid out in 2005 
by TSA. Now, TSA, you said that you are looking at putting in 
video cameras at your locations where they are doing a lot of 
that hand processing and screening.
    Ms. Bryan. Yes, sir.
    Mr. Mica. Do you have a request in for money for that?
    Ms. Bryan. I don't know.
    Mr. Mica. Will you let us know?
    Ms. Bryan. Yes.
    Mr. Mica. The other thing too is you said that of the 87 
TSA employees that were found pilfering or stealing, that a 
significant number--I don't want to take words out of your 
mouth--were turned in by other TSA employees?
    Ms. Bryan. Yes, sir.
    Mr. Mica. Do you know how many, and maybe we should look at 
some sort of a reward system or something as opposed to putting 
in video cameras. I have been through the video cameras at 
Miami airport and ports, and I saw what can be done to the 
video cameras. The employees know they are there. As opposed to 
some reporting system where there is some incentive to keep 
everybody straight. Have you explored that?
    Ms. Bryan. I don't think we have, but we can, and we will 
determine the number that were turned in by their fellow 
employees.
    Mr. Mica. And then finally, we really, now, do we have a 
resolution system, when a claim is put in, is there any way of 
telling what number are resolved back to the Department of 
Transportation? You don't?
    Mr. Podberesky. No, we don't.
    Mr. Mica. You basically pass it on to the airline.
    Mr. Podberesky. We have two sets of data, the mishandled 
baggage report data, which is data that the carriers provide to 
us, and those are the--
    Mr. Mica. But we don't know what the success rate is or the 
resolution rate?
    Mr. Podberesky. No.
    Mr. Mica. Now, back, I remember in a previous life back 
some time when we started this process, and I was trying to 
help the airlines, because there were so many complaints and 
there wasn't the ability to even process them. Some of you may 
recall, we had complaints that they could not handle all the 
complaints that were coming in. This is before 2001, I believe.
    So we went to the appropriators and we got you, I think you 
had 30 staffers and you went up to 50. Now I heard you are back 
down.
    Tell us what is taking place with the people who handle 
complaints. Do you have the personnel to handle the complaints? 
We know we have a system in place in which we know there is no 
confirmation of resolution. But tell me where you are in 
handling complaints and the number of folks you have now.
    Mr. Podberesky. We went from 16 to approximately 40 and we 
are down to about 33 now.
    Mr. Mica. Ah, high turnover rate.
    Mr. Podberesky. Most of it has to do with budgetary, that's 
a budgetary issue.
    Mr. Mica. I was teasing on that. Seriously, is that funded 
positions? How many FTEs do you have?
    Mr. Podberesky. I think for this year we may be funded at 
around 34.
    Mr. Mica. So we are back to where we were? Because we were 
up.
    Mr. Podberesky. We are not all the way back. We went from 
16 to 40. But if you recall, the main reason for the increase 
in staffing were additional responsibilities that were given to 
us under AIR-21, the main one being, having to do with civil 
rights issues. The first one was we had to investigate every 
disability complaint we received. The second was specific 
authority to investigate other types of civil rights complaints 
and take enforcement action against the airlines where 
appropriate.
    Mr. Mica. Yes, I heard at one point you had 500 
disability--
    Mr. Podberesky. We get about 500 disability claims a year.
    Mr. Mica. Is that about the same?
    Mr. Podberesky. It is about the same. It is down a little 
bit from 2000, 2001. And last year, it has gone down a little 
bit. But the numbers there are still fairly significant, it 
does take a lot of resources.
    But with respect to complaints that we get about baggage, 
where we see real problems in the sense of problems that we can 
resolve, we will take action to try to get airlines--for 
example, if an airline does not respond to a claim, if an 
airline takes too long to respond to a claim, we will get 
involved. We won't get involved if an airline says that a pair 
of pants that was damaged is only worth $50 and the passenger 
thinks it is worth $75. That is the kind of thing that 
typically is handled in small claims court. It is not the kind 
of issues that we get involved in. We don't try to adjudicate 
claims.
    Mr. Mica. So actually, it is not practical to have some 
sort of a resolution reporting?
    Mr. Podberesky. Not for those kinds of issues. We get 
involved where we find practices at airlines that might be a 
problem. We have had carriers that were applying 
interpretations, for example, of our requirements like carriers 
would disclaim any responsibility for consequential damages. 
For example, somebody has to buy toiletries because their bags 
don't arrive for a day. The carrier is responsible for paying 
for that. And even reasonable expenses for clothes, you know, 
that a person has to buy if the bags take a long time to get to 
them. And if a carrier disclaims responsibility for that, we 
will take action to ensure that they--
    Mr. Mica. One of the other things, too, that I noticed, if 
you look at the spike in the claims, some of the incidents 
with, I guess some labor problems, U.S. Air had some problems, 
maybe some others. There were some pretty significant mess-ups 
with baggage. And you said that, I think one of you testified 
that that accounted for a number of, well, spikes in the 
statistics.
    Mr. Podberesky. That is correct.
    Mr. Mica. Do we have any way to hold anyone accountable who 
causes these delays? For example, it is nice for some of the 
baggage handlers or whoever is effected to walk out or cause a 
problem. There is no recourse or hasn't been any for anyone who 
causes--
    Mr. Podberesky. There is no recourse that the Government 
has.
    Mr. Mica. And they are killing themselves, because the 
first thing on every television screen is baggage delayed at 
such and such an airline, who is already in financial 
difficulty. So passengers walk away from that or cancel their 
reservations in droves. There is a penalty that is paid, but 
nothing as far as recouping costs for those actions.
    Mr. Podberesky. Right.
    Mr. Mica. Well, I think I have sort of milked this cow dry. 
Mr. Costello, anything else? Mr. Boswell?
    Mr. Costello. Mr. Chairman, I do not have any questions, 
but I want to give the witnesses an opportunity if they want to 
add anything, before we conclude the hearing. Anyone on the 
panel want to?
    Ms. Bryan. I will. I would just like to say, we are very 
proud of our claims program. We have put a lot of effort and 
work into it. There is still work to be done. Passengers can 
file with both the carriers and TSA as well. So we are trying 
to prevent fraudulent claims. As Mr. Meenan said, we are 
bouncing names off each other locally.
    But I think it is a real good news story. We have our 
manager here and we have a 24/7 claims operation and I think 
that he should be commended for the hard work we have done in 
that area.
    Mr. Mica. She stuck herself into that one for a question.
    [Laughter.]
    Mr. Mica. Just a quick one. You are getting the claims and 
you are getting claims. Do you have a system of running your 
dupes?
    Ms. Bryan. We are continuing to work on it.
    Mr. Mica. Do you have a system?
    Ms. Bryan. Yes, sir, we do.
    Mr. Mica. So when you get a claim, she gets notice and vice 
versa?
    Mr. Podberesky. When we get a complaint that in any way 
relates to a baggage problem with TSA, the issue is transferred 
to TSA, is directed to TSA.
    Mr. Mica. Okay, so you both know that there is a claim.
    Mr. Boswell.
    Mr. Boswell. Just to thank you again. I think this has been 
a good exchange. I don't know if we came up with a lot of 
solutions or not, Mr. Chairman, but maybe we will go 
contemplate and come back with some. Keep doing your best. That 
is all we can ask. The American public wants you to do that, 
and I feel from listening to you today you have your heart in 
it, so stay right after it. If there is some tool that you need 
that you don't have that we could help with, I trust you will 
let us know.
    Mr. Mica. I thank Mr. Boswell for requesting this hearing 
and for Mr. Costello's leadership on the issue. Thank you for 
providing expert testimony today.
    Like Mr. Boswell, I am not sure if we came up with any 
specific remedies. It gives us a better idea of what is going 
on. I am not very optimistic, quite frankly, for the summer. I 
think just the numbers of people that we have handling baggage 
from a security standpoint, the number of increased passengers 
we will see in the air, add a little air turbulence of the 
summer and delays, and I think we are looking for a meltdown 
with baggage, passenger baggage this summer, unfortunately.
    Mr. Boswell. Mr. Chairman, if we could ask, do you have any 
knowledge, are the airlines planning on putting maybe more help 
on during this peak period?
    Mr. Meenan. The airlines always plan for peak periods. We 
in fact are doing it. I think one of our big concerns, 
obviously this summer but longer term, is where we are going 
with this air traffic control system. Because that from our 
perspective is where the real problems lie. And what we are 
looking at is essentially gridlock in the not too distant 
future if we don't start moving on some of the newer 
technologies.
    Mr. Mica. That is an issue that is also pending before the 
Committee and the FAA. As you mentioned, too, in your 
testimony, a manner in which to finance that. But that is a 
discussion that we will continue and hopefully we will resolve 
that.
    Again, I thank each of the witnesses for participating 
together, and the members.
    There being no further business before this Committee, this 
hearing is adjourned. Thank you.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8283.001
    
    [GRAPHIC] [TIFF OMITTED] T8283.002
    
    [GRAPHIC] [TIFF OMITTED] T8283.003
    
    [GRAPHIC] [TIFF OMITTED] T8283.004
    
    [GRAPHIC] [TIFF OMITTED] T8283.005
    
    [GRAPHIC] [TIFF OMITTED] T8283.006
    
    [GRAPHIC] [TIFF OMITTED] T8283.007
    
    [GRAPHIC] [TIFF OMITTED] T8283.008
    
    [GRAPHIC] [TIFF OMITTED] T8283.009
    
    [GRAPHIC] [TIFF OMITTED] T8283.010
    
    [GRAPHIC] [TIFF OMITTED] T8283.011
    
    [GRAPHIC] [TIFF OMITTED] T8283.012
    
    [GRAPHIC] [TIFF OMITTED] T8283.013
    
    [GRAPHIC] [TIFF OMITTED] T8283.014
    
    [GRAPHIC] [TIFF OMITTED] T8283.015
    
    [GRAPHIC] [TIFF OMITTED] T8283.016
    
    [GRAPHIC] [TIFF OMITTED] T8283.017
    
    [GRAPHIC] [TIFF OMITTED] T8283.018
    
    [GRAPHIC] [TIFF OMITTED] T8283.019
    
    [GRAPHIC] [TIFF OMITTED] T8283.020
    
    [GRAPHIC] [TIFF OMITTED] T8283.021
    
    [GRAPHIC] [TIFF OMITTED] T8283.022
    
    [GRAPHIC] [TIFF OMITTED] T8283.023
    
    [GRAPHIC] [TIFF OMITTED] T8283.024
    
    [GRAPHIC] [TIFF OMITTED] T8283.025
    
    [GRAPHIC] [TIFF OMITTED] T8283.026
    
    [GRAPHIC] [TIFF OMITTED] T8283.027
    
    [GRAPHIC] [TIFF OMITTED] T8283.028
    
    [GRAPHIC] [TIFF OMITTED] T8283.029
    
    [GRAPHIC] [TIFF OMITTED] T8283.030
    
    [GRAPHIC] [TIFF OMITTED] T8283.031
    
    [GRAPHIC] [TIFF OMITTED] T8283.032
    
    [GRAPHIC] [TIFF OMITTED] T8283.033
    
                                    

</pre></body></html>
